                                                            United States Department of State
                                                            and the Broadcasting Board of Governors

                                                            Office of Inspector General



                                                                      AUG 11 2011


MEMORANDUM

TO:           AlLM/AQM - Cathy 1. Read           /() _

FROM:         OIG - Harold W. Geisel /ff/)/J

SUBJECT:      Report on Audit ofthe Department ofState Tools To Guard Against and Track Cyber
              Attacks Program Funded by the American Recovery and Reinvestment Act

The subject report is attached for your review and action. As the action office for the report's one
recommendation, please provide your response to the report and information on actions taken or
planned for the recommendation within 30 days of the date of this memorandum. Actions taken or
planned are subject to follow-up and reporting in accordance with the attached compliance response
information.

The Office of Inspector General (OIG) incorporated your comments as appropriate within the body
of the report and included them in their entirety as Appendix C.

OIG appreciates the cooperation and assistance provided by your staff during this audit. If you have
any questions, please contact Evelyn R. Klemstine, Assistant Inspector General for Audits, at (202)
663-0372 or Richard Astor, Division Director, at (703) 284-2601 or by email at astorr({v,state.gov.

Attachment: As stated.

cc: INRlEXlB&F­ (b) (6)
    MIPRI ­ (b) (6)
      IRM/BMP/SPO/SPD ­ (b) (6)
                                         UNCLASSIFIED




                     United States Department of State 

                  and the Broadcasting Board of Governors

                         Office of Inspector General



                                       Office of Audits 





                              Audit of the 

                          Department of State 

                   Tools To Guard Against and Track 

                         Cyber Attacks Program

                             Funded by the 

                 American Recovery and Reinvestment Act 



                                        AUD/CG-11-38 

                                         August 2011




                                          Important Notice

This report is intended solely for the official use of the Department of State or the Broadcasting
Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the
Department of State or the Broadcasting Board of Governors, by them or by other agencies or
organizations, without prior authorization by the Inspector General. Public availability of the
document will be determined by the Inspector General under the U.S. Code, 5 U.S.C. § 552.
Improper disclosure of this report may result in criminal, civil, or administrative penalties.
                                                    




                                         UNCLASSIFIED

                                                               United States Department of State
                                                               and the Broadcasting Board of Governors

                                                               Office of Inspector General




                                            PREFACE

        This report is being transmitted pursuant to the Inspector General Act of 1978, as
amended, and Section 209 of the Foreign Service Act of 1980, as amended. It is one of a series
of audit, inspection, investigative, and special reports prepared as part of the Office of Inspector
General's (OIG) responsibility to promote effective management, accountability, and positive
change in the Department of State and the Broadcasting Board of Governors.

        This report addresses the Department of State's (Department) compliance with Federal,
Department, and American Recovery and Reinvestment Act of2009 (Recovery Act) acquisition
management practices as related to the Department's Tools To Guard Against and Track Cyber
Attacks program. The report is based on interviews with Department employees and officials,
direct observation, and a review of applicable documents.

        OIG contracted with the independent public accountant Clarke Leiper, PLLC, to perform
this audit. The contract required that Clarke Leiper perform its audit in accordance with
guidance contained in the Government Auditing Standards, issued by the Comptroller General of
the United States. Clarke Leiper's report is included.

       Clarke Leiper identified three areas in which improvements could be made: transparency
of award notifications posted on the Federal Business Opportunities Web site (FedBizOpps.gov),
compliance with certain requirements established by the Office of Management and Budget, and
accuracy of reporting by award recipients.

        OIG evaluated the nature, extent, and timing of Clarke Leiper's work; monitored progress
throughout the audit; reviewed Clarke Leiper's supporting documentation; evaluated key
judgments; and performed other procedures as appropriate. OIG concurs with Clarke Leiper's
findings. The recommendation contained in the report was developed on the basis of the best
knowledge available and was discussed in draft form with those individuals responsible for
implementation. ~IG's analysis of management's response to the recommendation has been
incorporated into the report. OIG trusts that this report will result in more effective, efficient,
and/or economical operations.

        I express my appreciation to all of the individuals who contributed to the preparation of
this report.



                                      Harold W. Geisel
                                      Deputy Inspector General
                                             UNCLASSIFIED

                                            CLARKE LEIPER PLLC
                                         CERTIFIED PUBLIC ACCOUNTANTS
                                               6265 FRANCONIA ROAD
                                             ALEXANDRIA, VA 22310-2510
                                                    703-922-7622
                                                 FAX: 703-922-8256
DORA M. CLARKE
LESLIE A. LEIPER


       Audit of Department of State Tools To Guard Against and Track Cyber Attacks Program Funded
       by the American Recovery and Reinvestment Act



       Office of Inspector General
       U.S. Department of State 

       Washington, D.C. 


       Clarke Leiper, PLLC (referred to as “we” in this letter), has performed an audit of the
       Department of State’s (Department) Tools To Guard Against and Track Cyber Attacks program
       funded by the American Recovery and Reinvestment Act of 2009 (Recovery Act). We evaluated
       the program’s planned activities, contracts awarded with Recovery Act funds, and compliance
       with reporting requirements established by the Recovery Act. This performance audit,
       performed under Contract No. SAQMPD04D0033, was designed to meet the objective in the
       report section titled “Objective” and further defined in Appendix A, “Scope and Methodology,”
       of the report.

       We conducted this performance audit from April through November 2010 in accordance with
       Government Auditing Standards, issued by the Comptroller General of the United States. We
       communicated the results of our performance audit and the related findings and recommendation
       to the Department of State Office of Inspector General.

       We appreciate the cooperation provided by personnel in Department offices during the audit.




       Clarke Leiper, PLLC
       July 2011




                                             UNCLASSIFIED

                                   UNCLASSIFIED




      Acronyms

Cyber Attacks program   Tools To Guard Against and Track Cyber Attacks program
Department              Department of State
DS                      Bureau of Diplomatic Security
FAR                     Federal Acquisition Regulation
FedBizOpps.gov          Federal Business Opportunities Web site
FPDS.gov                Federal Procurement Data System Web site
GFMS                    Global Financial Management System
INR                     Bureau of Intelligence and Research
IRM                     Bureau of Information Resource Management
IRM/EA                   Office of Enterprise Architecture
IRM/ENM                  Office of Enterprise Network Management
IRM/IA                   Office of Information Assurance
IT                      information technology
OIG                     Office of Inspector General
OMB                     Office of Management and Budget
Recovery Act            American Recovery and Reinvestment Act of 2009
TAS                     Treasury Account Symbol
VOIP                    Voice Over Internet Protocol




                                   UNCLASSIFIED

                                                            UNCLASSIFIED


                                                     TABLE OF CONTENTS

 

Executive Summary .............................................................................................................1 


Background ..........................................................................................................................2 


Objective ..............................................................................................................................3 


Results of Audit ...................................................................................................................3 


       A. Program Objectives Are Being Accomplished .....................................................4 

       B. Program Is Generally in Compliance With Recovery Act Requirements .............6 


Appendices 

   A. Scope and Methodology.........................................................................................10 

   B. Capital Investment Fund ........................................................................................13 

   C. Bureau of Administration Response ......................................................................14 





                                                            UNCLASSIFIED

                                            UNCLASSIFIED


                                        Executive Summary

        The American Recovery and Reinvestment Act of 2009 (Recovery Act)1 provided
approximately $64.2 million to fund the Tools To Guard Against and Track Cyber Attacks
(Cyber Attacks) program to produce a more secure information technology (IT) infrastructure to
protect the Department of State’s (Department) physical and logical information and assets. By
implementing a state-of-the-art secure IT infrastructure, the Department will enhance its ability
to execute its diplomatic mission, serve the U.S. public, and strengthen its infrastructure from
cyber security threats.

       The objective of our audit was to determine whether the Department adequately
implemented Cyber Attacks program plans, achieved stated program outcomes, and complied
with the reporting requirements of the Recovery Act.

        We found that program managers in the Bureaus of Information Resource Management
(IRM), Diplomatic Security (DS), and Intelligence and Research (INR) have planned for and
integrated the Cyber Attacks program into the Department’s existing cyber security initiatives.
Because the objectives of the Cyber Attacks program are part of an already existing IT Strategic
Plan, much of the initial planning has already been approved. The plan includes appropriate
focus on accountability and other requirements of Recovery Act funds. In addition, the
Department’s plans were thorough and well thought out. There were no deviations or major
delays in execution of the plan.

       The Department has taken appropriate actions in establishing guidelines intended to
ensure compliance with Office of Management and Budget (OMB) requirements for the
Recovery Act. Contracts were awarded in accordance with the Federal Acquisition Regulation
(FAR) and OMB memoranda.2 Procedures related to data transparency and reporting
requirements were established and implemented. While procedures related to data transparency
and reporting requirements were established and implemented, a few minor issues of
noncompliance were identified for the Cyber Attacks program. Recovery Act transparency
requirements identifying the purpose, nature, and corresponding program for contract awards
were not met prior to posting or publicizing information. Also, some Recovery Act award
information was not reported accurately.

       We recommended that the Bureau of Administration, Office of Logistics Management,
Office of Acquisitions Management (A/LM/AQM), enhance its contract oversight efforts to
ensure more complete and accurate reporting of award information.

      In its response to the draft report (see Appendix C), AQM concurred with the
recommendation. Based on the response, OIG considers the recommendation resolved, and it

1
 Pub. L. No. 111-5, 123 stat. 115 (2009). 

2
 Memoranda M-09-10, Initial Implementing Guidance for the American Recovery and Reinvestment Act of 2009, 

and M-09-15, Updated Implementing Guidance for the American Recovery and Reinvestment Act of 2009.


                                                     1

                                            UNCLASSIFIED
                                        UNCLASSIFIED



will be closed pending review and acceptance of documentation for the actions OIG specified.
The response and OIG’s analysis are presented after the recommendation.

                                          Background
        The American Recovery and Reinvestment Act of 2009 was signed into law as a direct
response to the recent economic crisis in an effort to jumpstart the economy and invest in long-
term growth by creating or saving jobs and putting a down payment on addressing long-
neglected challenges. The Department received $602 million of Recovery Act funds to create
and save jobs, repair and modernize domestic infrastructure crucial to the safety of American
citizens, enhance energy independence, and expand consular services offered to American
taxpayers. The Recovery Act also established an unprecedented level of accountability and
transparency in U.S. Government spending. Agencies and contractors were subject to new
reporting requirements set forth by OMB that allow the general public to view Recovery Act
spending in a direct and timely manner. A summary of the Department’s projects and a
breakdown of proposed spending of funds are shown in Table 1.

Table 1. Department Projects and Proposed Spending of Recovery Act Funds
Department of State – Account / Project                                          Funds (in 000s)
Diplomatic and Consular Programs                                                            $90,000
    - Hard Skills Training Center                                                            70,000
    - Consular Affairs Passport Facilities                                                   15,000
    - National Foreign Affairs Training Center                                                5,000
Capital Investment Fund                                                                   $290,000
    - Data Center                                                                           120,000
    - IT Platform                                                                            33,500
         Diplomatic Facility Telephone System Replacement                                    10,000
         Replacement of Aging Desktop Computers                                              13,000
         Mobile Computing                                                                    10,500
    - Cyber Security                                                                         98,500
         Tools To Guard Against and Track Cyber Attacks                                      64,205
         Strengthen Computer Hardware Security Testing and Forensic
         Investigations                                                                       4,000
         Safeguarding Citizens – Computer Security Systems                                   25,366
         Expanded Cyber Education                                                             4,929
    - Transfer to U.S. Agency for International Development                                  38,000
Office of Inspector General                                                                 $ 2,000
International Boundary and Water Commission Construction                                  $ 220,000
                                                                      TOTAL               $ 602,000
Source: Department of State.

        The nature of the Department’s mission makes it a target for cyber terrorists and hackers.
The Department serves the American public through the execution of its diplomatic mission and
the issuance of passports and visas to American citizens and foreign guests. A secure and
modern IT infrastructure is essential to the execution of those duties. Of the total $602 million in

                                                 2

                                        UNCLASSIFIED
                                        UNCLASSIFIED



Recovery Act funds provided to the Department, funds of approximately $64.2 million are
designated to the Cyber Attacks program to produce a more secure IT infrastructure to protect
the Department’s physical and logical information and assets. By implementing a state-of-the-
art secure IT infrastructure, the Department will both enhance its ability to execute its diplomatic
mission and serve the U.S. public and strengthen its infrastructure from cyber security threats.

        The objectives of the Cyber Attacks program are key components of an existing cyber
security initiative that is part of the Department’s long-term IT Strategic Plan. The Recovery Act
funds provided the Department the opportunity to supplement its existing efforts to accomplish
some of the key objectives of the cyber security initiative. These objectives are as follows:

    Produce a more secure infrastructure that protects the IT assets of the Department and
     maintains the capability to expand support to its partners in the U.S. foreign affairs
     community.
    Expand the capability to monitor, guard against, track, and respond to cyber attacks.
    Enhance the protection of personally identifiable information of U.S. citizens receiving
     services from the Department.
    Modernize, standardize, and centralize the Department’s domestic IT network.
    Fully integrate the Department’s domestic and overseas IT networks through
     reengineering, standardization, and deployment of a world-class, enterprise-wide network
     and network security architecture.
    Provide technological improvements to, and enhance security for, the Department’s
     mobile computing platform.

                                            Objective
       The objective of our audit was to determine whether the Department adequately
implemented Cyber Attacks program plans, achieved stated program outcomes, and complied
with the reporting requirements of the Recovery Act.

                                       Results of Audit
       The Department has made progress in accomplishing Cyber Attacks program objectives
and milestones. The success of the Cyber Attacks program was the result of collaboration
among IRM, DS, and INR personnel, as well as other Department personnel and contractor staff.
The bureaus planned and integrated the Cyber Attacks program into the Department’s existing
cyber security initiative.

       As of September 30, 2010, almost 100 percent of the $64.2 million in program funds had
been obligated, and about half of the funds had been expended for contracts to support six major
subprojects: Hardening Department of State Infrastructure and Improved Defensive Sensors;
Security Architecture, Support, and Oversight; Data Loss Prevention; Improved Defensive
Sensors, Hardening Infrastructure and Classified Systems Assessments; Sensitive



                                                 3

                                        UNCLASSIFIED
                                        UNCLASSIFIED



Compartmented Information Network Security; and Mobile Communications, Voice Over
Internet Protocol (VOIP), Web Development, and Network Enhancements.

        Overall, IRM program managers have complied with management and financial
oversight requirements of OMB. Also, funds were awarded and distributed in a prompt, fair, and
reasonable manner. However, we noted several areas in which Recovery Act procedures were
not followed and contract data was not reported accurately.

Finding A. Program Objectives Are Being Accomplished

        Based on our inquiries of project management, review of supporting documentation, and
tests for propriety of contract obligation and expenditure transactions, we determined that
satisfactory progress is being made on meeting program objectives. Recovery Act funds are
appropriately accounted for and being used in accordance with approved program plans. The
objectives of the Cyber Attacks program do not encompass complete and discrete plans for the
Department’s existing cyber security initiative and IT Strategic Plan. These Recovery Act-
funded activities are only partial components of broader Department plans. Therefore, the Cyber
Attacks program is meant primarily to supplement the Department’s current efforts by funding
certain activities within those plans. We found no significant delays or funding issues in the
Cyber Attacks program with regard to activities funded by the Recovery Act. To complete all
components of the cyber security initiative as they relate to the Cyber Attacks program,
additional funding and resources will be required in FY 2011 and beyond. IRM officials project
that operation and maintenance costs to operate and manage the new infrastructure will be about
$300,000 each year. This additional cost will cover the increased maintenance requirements.
When cyber security projects are completed with a secure infrastructure serving all foreign
affairs agencies, IRM officials stated that they believe they will realize savings because standard,
more secure systems and networks are less expensive to operate.

       The Cyber Attacks program has resulted in collaboration among personnel of several
Department bureaus, as well as Department personnel and contractor staff. The overall
responsibility and accountability of the program were managed by IRM’s Office of Enterprise
Network Management (ENM). IRM’s Offices of Enterprise Architecture (EA) and Information
Assurance (IA) are also involved in the Cyber Attacks program. DS and INR supported IRM
and were responsible for designated parts of the program. These bureaus provided IRM with
weekly updates for consolidated reporting purposes. The Cyber Attacks program comprises six
subprojects. The subprojects and respective responsible bureaus are shown in Table 2, and major
contracts are in Table 3.




                                                 4

                                        UNCLASSIFIED
                                                 UNCLASSIFIED




Table 2. Cyber Attacks Program Subprojects and Responsible Bureaus
 Subprojects – Tools To Guard Against and Track
                                                              Bureau          Obligated            Expended
                 Cyber Attacks
     Hardening Department Infrastructure and Improved
1    Defensive Sensors
        a. Network Access Controls & Perimeter Security            IRM       $ 39,713,695.55     $ 18,398,856.68
        b. End-to-End Configuration Management
        c. Centralized Patch Management
        d. Domestic Network Modernization
2    Security Architecture, Support, and Oversight                 IRM          5,404,679.51        3,107,444.62
3    Data Loss Prevention                                          IRM          4,297,218.60        1,988,797.14
4    Improved Defensive Sensors, Hardening Infrastructure,
     Classified Systems Assessments                                 DS          6,754,501.33        4,532,709.22
5    Sensitive Compartmented Information Network
     Security                                                       DS          2,260,497.04        1,092,647.17
6    Mobile Communications, VOIP, Web Development,
     Network Enhancements                                          INR          5,773,226.73        3,130,396.04
                                                    TOTAL                    $ 64,203,818.76     $ 32,250,850.87
Source: Department of State.

Table 3. Cyber Attacks Program Major Contracts
          Award #                  Vendor            Awarded                          Services
                                                                     Labor contract for project management and
                                  Northrop
                                                                     implementation of Functional Task 8, which
                                  Grumman
 1   SAQMPD07F0777                                 $20,898,670.20    encompasses IRM/ENM initiative for
                                 Information
                                                                     Hardening Infrastructure and Improving
                               Technology, Inc.
                                                                     Defensive Sensors.
                                                                     Acquire services to support the Chief
                                                                     Information Officer’s planning organization
                                                                     in the IT Capital Planning and Investment
                               Allied Technology                     Control and Infrastructure Optimization
 2   SAQMMA09L0369                                 $1,836,196.92
                                   Group, Inc.                       Initiative Line of Business processes for the
                                                                     Department, and support the Department in
                                                                     tracking and evaluating current and
                                                                     emergent technologies.
                           Deloitte Consulting                       Acquire services to document, evaluate, and
 2   SAQMMA09L0943                                 $2,599,953.19
                                   LLP                               develop architecture and transition strategy.
                                                                     Acquire services for enterprise-wide
 2   SAQMMA10F0997                 WINS             $228,019.20
                                                                     software monitoring and testing.
                                                                     Develop new privacy policies related to the
 3   SAQMMA09L0757                   SRA            $173,157.04
                                                                     Data Loss Prevention program.
                                                                     Acquire program management, enterprise
                                  Booz Allen                         risk, and data analysis services to support
 3   SAQMMA10L0391                                  $162,199.52
                                 Hamilton Inc.                       IRM/IA’s collaborative Data Loss
                                                                     Prevention initiative.



                                                        5

                                                 UNCLASSIFIED
                                               UNCLASSIFIED


                                                                 Network Continuous Certification and
                                                                 Accreditation Support Services. Initiation
                                                                 and development of a new continuous
                                Booz Allen
 3   SAQMMA10L1038                               $2,880,476.95   certification and accreditation process to
                               Hamilton Inc.
                                                                 increase the use of automation and
                                                                 monitoring in certification and accreditation
                                                                 activities.
                                                                 IT infrastructure security support and
 4   SAQMMA08L3182                 SRA           $4,374,806.47
                                                                 program management.
                                 Mantech                         Evaluate existing systems and processes
 5   SAQMMA08L1558             Information       $2,238,113.35   related to network security.
                                 Systems
                                                                 VOIP engineer to design/implement VOIP
 6   SAQMMA09F2886               WINS             $239,986.18
                                                                 infrastructure.
                                                                 Systems engineers for network
 6   SAQMMA09F3054               WINS             $864,122.20
                                                                 enhancements/ modernization.
 6 SAQMMA09F3062                 WINS             $749,163.20    Web site developers.
Source: Department of State.

Finding B. Program Is Generally in Compliance With Recovery Act
Requirements

         IRM program managers adequately planned for and managed the funds provided for the
Cyber Attacks program. Recovery Act funds were used for their intended purposes, and overall,
the Department complied with OMB requirements. We found funds were awarded and
distributed in a prompt, fair, and reasonable manner. Contractors and other fund recipients met
eligibility requirements and complied with award requirements. For example, fixed-price
contracts were awarded to American companies for hardware, software, and circuits in support
of American high-technology companies. As required by the Recovery Act, separate Treasury
Account Symbols (TAS) were established for the Cyber Attacks program. As reported through
the Department’s Capital Investment Fund, we verified that program funds had proper approvals
and that the monitoring of subprojects and contracts was adequate, as shown in Appendix B,
“Capital Investment Fund.” We noted, however, some minor instances in which Recovery Act
procedures were not followed and contract data was not reported accurately.

Notifications on the Federal Business Opportunities Web Site

        For the 25 contracts reviewed, we found that the majority of the FedBizOpps.gov
notifications did not provide adequate transparency or a clear understanding to the general public
of the purpose, nature, and corresponding program of the procurements. The Department has
publicized both its program plans and its contracts awarded with Recovery Act funds. However,
19 award notifications did not reference specific program plans or objectives, making it difficult
to determine which awards were made pursuant to the Department’s Recovery Act programs. In
addition, 17 award notifications did not include descriptions of the products or services that
could be readily understood by the general public.



                                                      6

                                               UNCLASSIFIED
                                             UNCLASSIFIED



          In that regard, OMB Memorandum M-09-153 states:

          Agencies should ensure that their descriptions of procurements use language
          appropriate for a more general audience, avoiding industry-specific terms and
          acronyms without plain language explanations. Taxpayers, the media, and others
          are using our business systems to gain insight on how Recovery Act funds are
          being spent.

       Transparency and accountability of Recovery Act funds are major requirements of the
act. However, almost all program funds have been obligated. Therefore, we are not making any
recommendations for IRM to improve transparency for future procurements notifications
reported through FedBizOpps.gov. Nevertheless, this deficiency prevented the general public
from being able to identify procurements made pursuant to the Cyber Attacks program, since
descriptions within award notifications did not contain references or mention corresponding
programs.

Recipient-Reported Data on Award Information

       For the quarterly reporting period ended June 30, 2010, we identified the following
awards in which recipient-reported data did not agree with source documentation:

          	 Recovery Act funds of $14,366,103 awarded prior to the quarter ended June 30, 2010,
             were not reported by recipients. This amount was based on four different awards.
             The majority of this amount, $12,148,674, was attributable to a modification of an
             existing award that was not reported by a recipient as of the end of the reporting
             period.
          	 For one award, duplicate reporting of a modification of $149,803 was included within
             the contractor’s report.

        The FAR4 establishes reporting requirements for contractors receiving awards funded by
the Recovery Act. The information to be reported includes data such as cumulative amounts
awarded, cumulative amounts spent, descriptions of goods and services, assessment of contractor
progress toward completion, and any subcontracting activity. Contractors receiving awards
under the Recovery Act are required to report quarterly on award information and activities using
the online reporting Web site FederalReporting.gov. This information is then uploaded from
FederalReporting.gov to the Recovery.gov Web site for publicizing to the general public.
Department personnel are required to review recipient-reported information every quarter to
ensure consistency with Department records. Therefore, as noted, recipient-reported data for the
Cyber Attacks program showed $14,366,102 as underreported and $149,803 as overreported.

          Recommendation 1. We recommend that the Bureau of Administration’s Office of
          Logistics Management, Office of Acquisitions Management, ensure that contractors that

3
    OMB Memorandum M-09-15, pt. 6.2., p. 57 (April 3, 2009).

4
    FAR 52.204-11, “American Recovery and Reinvestment Act-Reporting Requirements.” (March 2009) 


                                                       7

                                             UNCLASSIFIED
                                             UNCLASSIFIED



        received awards from the American Recovery and Reinvestment Act for the Tools To
        Guard Against and Track Cyber Attacks program provide accurate award information
        and that the inaccurate award information identified in this report is corrected.

        Management Response: AQM concurred with the recommendation, stating that the
        bureau will research reported inaccuracies and provide OIG with an action plan to resolve
        any discrepancies.

        OIG Analysis: On the basis of the response, OIG considers the recommendation
        resolved. OIG will consider the recommendation closed pending review and acceptance
        of AQM’s action plan.

Instances of Noncompliance With Certain Office of Management and Budget
Requirements

       IRM generally followed OMB requirements for contracts supporting the Cyber Attacks
program. However, we identified instances of agency noncompliance with OMB Memorandum
M-09-15 concerning performance requirements in awarding contracts to contractors.
Specifically, for the 25 contracts reviewed, we noted the following instances of noncompliance:

        	 The clause in the FAR (FAR 52.204-11)5 that specifies recipient reporting
           requirements was not included in the award documents for one award.

        	 Pre-solicitation and award notifications were not published on FedBizOpps.gov for
           three awards. According to the FAR,6 agencies should publish both pre-solicitation
           and award notifications on FedBizOpps.gov for the procurement of all goods and
           services using Recovery Act funds.

        	 On the Federal Procurement Data System Web site (FPDS.gov), five awards were not
           identified as Recovery Act initiatives. According to the FAR,7 in addition to
           publicizing contract and award actions on FPDS.gov, agencies should identify any
           action funded in whole or in part by the Recovery Act in accordance with the
           instruction at https://www.fpds.gov.

        	 One contract had been awarded on a noncompetitive basis, which was not disclosed
           in the special reporting section on the Web site Recovery.gov. The FAR8 requires
           awards that are made on a noncompetitive and/or a non-fixed-price basis to be
           disclosed in a special reporting section on Recovery.gov.



5
  Ibid. 

6
  FAR 5.704, “Publicizing Pre-award,” and FAR 5.705, “Publicizing Post-award,” respectively. 

7
  FAR 4.605, “Contract Reporting - Procedures.”

8
  FAR 5.705(b). 


                                                        8

                                             UNCLASSIFIED
                                      UNCLASSIFIED



        Since almost all program funds have been obligated and the noncompliance instances
cited are primarily isolated, we are not making any recommendations in this area.




                                              9

                                      UNCLASSIFIED
                                        UNCLASSIFIED



                                                                                     Appendix A

                                  Scope and Methodology
       The Department of State (Department), Office of Inspector General (OIG), contracted
with Clarke Leiper, PLLC, independent public accountant, to audit the Department’s Tools To
Guard Against and Track Cyber Attacks (Cyber Attacks) program.

        The purpose of this audit was to evaluate the Cyber Attacks program and assess the
Department’s planning and use of funds from the American Recovery and Reinvestment Act of
2009 (Recovery Act) to meet program objectives, to ensure that Recovery Act funds were used
for their intended purpose, and to determine whether the Department complied with Office of
Management and Budget requirements. To ensure the adequacy of program plans and to ensure
that the Department used Recovery Act funds appropriately, we performed audit procedures to
determine whether

      Funds were awarded and distributed in a prompt, fair, and reasonable manner.
      Recipients and uses of all funds were transparent to the public and the public benefits of
       the funds were reported clearly and accurately and in a timely manner.
      Risks associated with the project receiving Recovery Act funding have been identified
       and communicated to the Department.
      Funds were used for authorized purposes.
      The program has taken action to identify and mitigate instances of fraud, waste, error,
       and abuse.
      Established schedules were monitored and delays were properly justified.
      Cost overruns and unnecessary delays were avoided and lessons learned were identified
       to prevent recurrences.
      Program goals were achieved and specific program outcomes were realized.
      Contractors and other fund recipients met eligibility requirements and complied with
       award requirements.
      Adequate planning was conducted for potential future project phases.

        We conducted the audit work from April through October 2010. This work was
conducted in accordance with generally accepted government auditing standards. Those
standards require that the auditors plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We and OIG believe that the evidence obtained provides a reasonable basis for the
findings and conclusions based on the audit objectives.

        In our audit of the Department’s Cyber Attacks program, we interviewed project
managers and officials at the Bureaus of Information Resource Management, Diplomatic
Security, and Intelligence and Research and evaluated documentation supporting planned
activities and milestones, risk assessments, and other relevant documents in support of major
accomplishments or decisions. For compliance with Recovery Act requirements, we reviewed

                                                10

                                        UNCLASSIFIED
                                       UNCLASSIFIED



contract files, award documentation, and information published on the Web sites Recovery.gov,
FPDS.gov, and FedBizOpps.gov. In determining the proper use of Recovery Act funds, we
tested sample transactions and reviewed related source documents, including purchase orders,
contracts, vendor invoices, and payment and approval vouchers.

       In the draft report, we addressed the report’s one recommendation to the Bureau of
Information Resource Management (IRM). However, IRM officials suggested that the Bureau of
Administration, Office of Logistics Management, Office of Acquisitions Management
(A/LM/AQM), would be the more appropriate office to take action on this recommendation.
Therefore, we redirected the recommendation in this final report to AQM, whose response in
presented in Appendix C.

Work Related to Internal Controls

        To assess the adequacy of internal controls related to the weekly activity reports, the
accountability of Recovery Act funds, and the monitoring of projects to avoid cost overruns and
delays, we performed the following actions:

       Obtained an understanding of the processes and procedures.
       Reviewed source documentation and other types of evidence in order to confirm the
        adequacy of stated controls.
       Compared weekly report balances with details and reconciled differences in the Global
        Financial Management System (GFMS).
       Reviewed internal reports related to the compilation of balances and amounts for
        reporting to the public.
       Compared reported progress with information in the planning documents and progress
        schedules.
       Determined that separate Treasury Account Symbols were established for Recovery Act
        programs.
       Verified proper approval over transactions involving Recovery Act funds.
       Discussed with program managers issues regarding cost overruns and delays and
        subsequently compared responses with expenditure details and program schedules to
        assess the reasonableness of responses.

Data Reliability

         We selected a sample and performed the following procedures in assessing data
reliability and quality:

   	 Reviewed contract files to determine whether contracts were competitively awarded and
      at fixed cost.
   	 Tested, if a contract was determined to have been awarded noncompetitively or at a non-
      fixed cost, whether those contracts were disclosed and listed in a separate section on
      Recovery.gov.

                                              11

                                       UNCLASSIFIED
                                      UNCLASSIFIED



   	 Reviewed, for each contract, corresponding notifications and award information
      published on FedBizOpps.gov and FPDS.gov to determine whether all required Recovery
      Act disclosures and identifying information were reported.
   	 Reviewed, for each contract, the vendors’ reported data from Recovery.gov to ensure that
      all required information was included. We also compared vendor-reported amounts with
      those within GFMS.
   	 Compared weekly financial report balances with underlying schedules and GFMS details.

Use of Computer-Processed Data

       We used computer-processed data from GFMS to select sample items for testing
contracts and obligation and/or expenditure transactions. We also used GFMS details and
reconciling schedules to compare the accuracy of balances reported within the Recovery Act
weekly financial reports posted by the Department. We determined that the GFMS data and
schedules were reliable based on our selected sample and our testing of internal controls
involving the weekly reporting process.




                                              12

                                      UNCLASSIFIED
                                             UNCLASSIFIED



                                                                                         Appendix B

                                   Capital Investment Fund
    Funding from the Recovery and Reinvestment Act of 2009 (Recovery Act) for the
Department of State (Department) is allocated among four separate Treasury Account Symbols
(TAS), or funds. These funds were created to comply with the Recovery Act requirement of
tracking and accounting for Recovery Act funds separately from other agency funds. All TASs
and related activities are included within the Department’s weekly financial reports. The
Department obligated nearly 100 percent of the amount available for the Tools to Guard Against
and Track Cyber Attacks program.

    The Department’s Capital Investment Fund (TAS 1119) is broken down into three sections–
the data center, cyber security, and IT platform initiatives, as shown in Table 1. The Cyber
Attacks program is tracked and recorded under the cyber security portion of the fund (TAS
1119.0002), as shown in Table 2.

Table 1. Department of State Capital Investment Fund
Department of State – Capital Investment Fund                             Planned          Actual
(TAS 1119)                                             Fund Code          Budgeted       Obligations
    - Data Center                                      1119.0001          120,000,000      119,972,941
    - Cyber Security                                   1119.0002           98,500,000       98,502,834
    - IT Platform                                      1119.0003           33,500,000       33,499,148
 Transfer to U.S. Agency for International
      Development (USAID)                                   -              38,000,000       38,000,000
                                               TOTAL                   $ 290,000,000     $ 289,974,923
Source: Department of State.


Table 2. Cyber Security Portion of Capital Investment Fund
                                                                                 Obligations as of
             Cyber Security (TAS 1119.0002)                     Planned
                                                                                    9-30-2010
Tools To Guard Against and Track Cyber Attacks                   $64,205,000          $ 64,203,789
Strengthen Computer Hardware Security Testing and
Forensic Investigations                                             4,000,000             3,998,790
Safeguarding Citizens – Computer Security Systems                  25,366,000            25,365,911
Expanded Cyber Education
                                                                   4,929,000               4,934,344
                                                 TOTAL          $ 98,500,000            $ 98,502,834
Source: Department of State.




                                                  13

                                             UNCLASSIFIED
                               UNCLASSIFIED



                                                                                   Appendix C



                                               United States Department of State
                                               Washington, D.G. 20520

                                               July \9,2011

UNCLASSIFIED
MEMORANDUM

TO:         OIG/AUD - Mark Taylor

FROM:       Cathy   Rea~MlAQM
SUBJECT: Draft Report on Audit of the Department of State Tools To Guard
         Against and Track Cyber Attacks Program Funded by the American
         Recovery and Reinvestment Act

Recommendation 1: We recommend that the Bureau ofInformation Resource
Management, Office of Enterprise Network Management, ensure that contractors
that received awards from the American Recovery and Reinvestment Act for the
Tools To Guard Against and Track Cyber Attacks program provide accurate
award information and that the inaccurate award information identified in this
report be corrected.

AlLMlAQM response:

AlLMlAQM will work with the OIG regarding the identified contracts/task orders
and will research each reported inaccuracy. Once all procurement-related actions
have been researched and verified, AlLMlAQM will provide OIG with an action
plan to resolve any discrepancies.




                                UNCLASSIFIED




                                        14 


                               UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs

         and resources hurts everyone. 


        Call the Office of Inspector General 

                     HOTLINE 

                    202-647-3320 

                 or 1-800-409-9926 

          or e-mail oighotline@state.gov 

       to report illegal or wasteful activities.

               You may also write to
            Office of Inspector General
             U.S. Department of State
               Post Office Box 9778
               Arlington, VA 22219
            Please visit our Web site at:
                http://oig.state.gov

         Cables to the Inspector General
        should be slugged “OIG Channel”
            to ensure confidentiality.
